QUESTIONS PRESENTED
Whether the Sixth Amendment requires that a district court hold an evidentiary
hearing before denying a motion to withdraw a guilty plea before imposing a life
sentence, where the defendant has alleged his guilty plea was involuntary because of
ineffective assistance of counsel, and where the government subsequently withdrew the
promised benefits it had agreed to provide to the defendant pursuant to a written plea
agreement.

i

TABLE OF CONTENTS
QUESTION PRESENTED....................................................................................................i
TABLE OF AUTHORITIES.................................................................................................iii
OPINION BELOW …………………………………………………………………………1
JURISDICTION…………………….......................................................................................2
STATEMENT OF THE CASE................................................................................................3
REASON FOR GRANTING THE WRIT............................................................................13
This Court should grant a writ of certiorari to review the question
presented because the Court of Appeals for the Seventh Circuit
improperly affirmed the district court’s decision to deny defendant
Brown’s motion to withdraw his guilty plea without an evidentiary
hearing effectively preventing Brown from receiving effective legal
counsel as guaranteed by the Sixth Amendment of the U.S. Constitution
prior to imposing a life sentence.

CONCLUSION..........................................................................................................................18
APPENDICES ……………………...........................................................................................19

ii

TABLE OF AUTHORITIES
Cases
Carter v. Duncan, 819 F.3d 941 (7th Cir. 2016) …………………………………………….16
Jones v. Calloway, 842 F.3d 454 (7th Cir. 2016) ……………… …………………………….16
Strickland v. Washington, 466 U.S. 688 104 S.Ct 2052. 80 L. Ed. 2d 674 (1984) .…………16
United States v. Collins, 796 F.3d 829 (7th Cir. 2015) ………………………………………13
United States v. Ford, 993 F.2d 249 D.C. Cir. 1993) ………………………………………..15
United States v. Jones, 381 F.3d 615 (7th Cir. 2004) …………………………………………14
United States v. Peterson, 414 F.3d 825 (7th Cir. 2005) ……………………………………..14
United States v. Robinson, 587 F.3d 1122 (D.C. Cir. 2009) …………………………………15
United States v. Taylor, 139 F.3d 924 (D.C. Cir. 1998) ……………………………………..15
United States v. Wynn, 633 F.3d 849 (6th Cir. 1994) ………………………………………..14

STATUES
Title 18, United States Code, Section 1962(d) ………………………………………………4
Title 18, United States Code, Section 1959(a) ……………………………............................4
Title 28, United States Code, Section 2255 …………………………………………………12
Title 28, United States Code, Section 1254(1) ………………………………………………2
Title 28, United States Code, Section 2106 ………………………………………………….2
U.S. Constitution, Amendment VI ………………………………………………………….2

iii

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
No.
BYRON BROWN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
The Petitioner, Byron Brown, respectfully prays that a writ of certiorari issue to
review the judgment and opinion of the United States Court of Appeals for the Seventh
Circuit which was entered in the above-entitled case on August 28, 2020.
OPINION BELOW
The opinion of the United States Court of Appeals for the Seventh Circuit,
entitled United States v. Byron Brown,, et al., No. 17-1650, slip opinion, (Seventh Circuit
August 28, 2020), included in the appendix attached hereto at page A1.

1

JURISDICTIONAL STATEMENT
The jurisdiction of this Court is invoked pursuant to Title 28, United States Code,
Section 1254(1). On August 28, 2020, the United States Court of Appeals for the Seventh
Circuit affirmed the district court’s decision to deny defendant Brown’s motion to
withdraw his guilty plea, by rejecting his allegation of ineffective assistance of counsel,
without a hearing, in a capital case. No petition for rehearing was filed.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution provides in pertinent
part as follows:
“In all criminal prosecutions, the accused shall . . . have the assistance of counsel
for his defense.”

Title 28, United States Code, Section 2106
The Supreme Court or any other court of appellate jurisdiction may affirm,
modify, vacate, set aside or reverse any judgment, decree, or order of a court lawfully
brought before it for review, and may remand the cause and direct the entry of such
appropriate judgment, decree, or order, or require such further proceedings to be had
as may be just under the circumstances.
(June 25, 1948, ch. 646, 62 Stat. 963.)

2

STATEMENT OF THE CASE
Sometime in 2012, while in custody in the Cook County Jail awaiting sentencing
on a state murder charge, Byron Brown was approached by federal law enforcement
agents and asked to provide information concerning an on-going federal criminal
investigation concerning the Hobos street gang in Chicago. Brown agreed, and began to
provide information to federal authorities about his extensive criminal activity and
involvement as a member of the Hobos street gang. At the time, Brown was
represented by his retained counsel.1 Brown was told by the interviewing federal agents
while awaiting sentencing in the state case that if he agreed to provide information
about the suspected criminal conduct of the members of Hobos street gang to assist the
federal investigation, federal authorities would negotiate a possible reduced sentence
on the first degree murder conviction that had been returned in Cook County, in
addition to providing Brown a global plea agreement for all admitted personal criminal
conduct in the on-going federal investigation, including any additional crimes for
which the federal death penalty could be imposed. With the assistance of his legal
counsel, Brown agreed to continue to provide requested information about the Hobo
street gang to federal agents as requested, in exchange for a favorable global plea
agreement relating to the anticipated federal charges.
In September 2013, a federal criminal indictment charging Byron Brown, along
with Gregory Chester, Arnold Council, Gabriel Bush, and Stanley Vaughan, all
members of the Hobo street gang, with operating a racketeering enterprise, a violation
Retained Counsel was Attorney Robert Loeb, who was subsequently appointed by the district court
pursuant to the Criminal Justice Act on 10/21/2013, to represent Brown in the federal case - 13 CR 774.
1

3

of Title 18, United States Code, Section 1962(d). The racketeering charge also alleged
that the defendant committed three sperate murders in aid of the racketeering
enterprise.
As the federal prosecutors prepared the federally indicted case for trial, Brown
was required to repeatedly meet with the assigned Assistant U.S. Attorney and federal
case agents to review and discuss what was revealed by Brown as part of his
government cooperation. Throughout, Brown continued to be represented by his CJA
appointed attorney. As required by his agreement to cooperate and provide information
to the government, Brown was also directed to provide sworn testimony before a grand
jury. After testifying as directed before the grand jury, Brown entered into a written
plea agreement. Pursuant to the terms of the plea agreement, the government agreed to
recommend that Brown receive a sentence of 30-40 years imprisonment. After signing
the plea agreement, the district court held a change of plea hearing and accepted
Brown’s plea of guilty. As provided by the terms of the plea agreement, Brown pled
guilty to Count One on the Indictment– racketeering in violation of 18 U.S.C. § 1962(d)
and Count Four- murder in aid of racketeering, in violation of 18 U.S.C. §1959(a). The
district court accepted Brown’s guilty plea after conducting the required Rule 11
colloquy.
Prior to being sentenced, Brown filed, pro se, a “Motion to Strike Finding of
Guilty Based on Plea,” alleging misconduct by his appointed defense attorney. The
appointed attorney thereafter filed, on behalf of Brown, a motion to Withdraw Guilty
Plea and a Motion to withdraw as attorney for Byron Brown. The district court granted
4

the attorney’s request to withdraw as appointed counsel and subsequently appointed
new counsel for Brown pursuant to the Criminal Justice Act.
With the assistance of new counsel, Brown filed an amended Motion to
Withdraw his plea of guilty. In support of this motion, Brown submitted an Affidavit
detailing private conversations and representations made to him by his former attorney,
and the rationale underlying his motion to withdraw his guilty plea. In this Affidavit,
Brown specifically alleged the following:
In about 2009, while I was in held in custody at the Cook County Jail
on the charge of first degree murder, I was visited by two law
enforcement investigators who I believe were federal agents. The
agents knew that I had been charged with first degree murder, that I
was a member of the Hobos street gang, and that I would be facing a
long prison term if convicted in Cook County. The agents explained
that they were hoping to get some information about the Hobos and
particularly Gregory Chester (BOWLEGS), Arnold Council
(ARNOLD) and Gabriel Bush (GABE). The agents explained that if I
had information about crimes committed by the Hobos, and in
particular Gregory Chester, Arnold Council and Gabriel Bush, this
information could help me with the first-degree murder charge. The
agents knew that Gregory Chester, Arnold Council and Gabriel Bush
were considered the leaders of the “Hobos”. The agents further
explained that if I could provide information especially about the
5

murders committed by Gregory Chester, Arnold Council or Gabriel
Bush, then I could possibly get a good plea deal on all other crimes
committed and this first degree murder charge. Because I only
recently been charged and held in custody, I told the agents that I
did not have any information and did not know anything about
murders committed by Gregory Chester, Arnold Council or Gabriel
Bush. When the agents left, they told me to really think about it and
stated that all I have to do is “come up” with information to put on
Gregory Chester, Arnold Council and Gabriel Bush. They also stated
that I should not be the only one going away for murders committed
for the Hobos, and for Gregory Chester, Arnold Council and Gabriel
Bush. I told the agents again that I did not have any information
Gregory Chester, Arnold Council and/or Gabriel Bush.
On or about August 29, 2012, the agents came to Cook County
Jail again. During this meeting I told the agents what they wanted to
hear. I described my criminal activity as a member of the Hobos and
I provided information about Gregory Chester, Arnold Council and
Gabriel Bush. I provided a lot of details that I knew not only because
I was present during most of what I told the agents, but also because
other Hobos had talked about each incident with enough detail that I
could describe the incident as if I was also there, when in fact, I was
not there and only learned about what happened from others. I
6

knew, however, that if the information I was providing to the agents
about what I knew about Gregory Chester, Arnold Council and
Gabriel Bush, I had to describe each incident as if I was there and to
admit my involvement with each murder. I also knew that I had to
tell the agents that Gregory Chester was involved in a murder that
Arnold Council committed a murder and that Gabriel Bush was also
involved in the murders I knew about or that I committed with
others. When I spoke to the agents I was alone, and no attorney was
present. The agents made it clear to me that I had have really good
information about each murder and I have to provide a good
description of how Gregory Chester, Arnold Council and Gabriel
Bush were each involved if I hoped to get any type of deal from the
government. Although I had an attorney representing me in the
first-degree murder case still pending in Cook County, my attorney
was not present when I was interviewed by the federal agents in the
Cook County Jail.
After this second meeting with the agents, my attorney, Robert
Loeb, explained to me that the government was interested in using
me as a witness against Gregory Chester, Arnold Council and
Gabriel Bush, as well as other members of the Hobos. I was told that
my cooperation with the federal case would help me in the first
degree murder case in Cook County, but that I would also need to
7

plead guilty to federal charges. The new federal charges would be
very serious, but my sentence at the end would be the same because
the deal he would try to work out would result in an agreement
where the prison sentence I would receive in the first-degree murder
state charge, would run concurrent with the recommended federal
sentence following my guilty plea to federal charges. My attorney
further advised that I could possibly get a deal for term of prison of
35-40 years if I agreed to cooperate with federal authorities. In
reliance on my attorney’s advice, I agreed to cooperate and provide
another statement to the federal prosecutor, telling him the same
things I have told to the federal agents that had come to question me
in August 2012.
As I have promised to do, I meet with the federal prosecutor
several times. During each meeting, I was asked to provide more
and more details to about each murder I admitted in the earlier
meeting and the prosecutor continued to ask me questions about the
involvement and participation of BOWLEGS, GABE, and ARNOLD
in each murder that I had admitted to. As the federal prosecutor
began to change what I had first described about Gregory Chester,
Arnold Council and Gabriel Bush, I had numerous discussions with
my attorney about the prosecutor was putting words in my mouth
and changing what I had said about Gregory Chester, Arnold
8

Council and Gabriel Bush. When I told my attorney that this was
wrong and not true, my attorney told me that I hard to go along with
whatever the prosecutor wanted, or I would not get the deal that we
had discussed – 35-40 years to run concurrent with the state
sentence. Because of this threat, I continued to agree with whatever
the prosecutor stated whenever we met to go over again what I had
first told the federal agents in August 2012.
During January 2014, a typed written statement was presented
to me and my attorney. I was told by my attorney that this was now
my statement and that I be required to testify before the Grand Jury
to swear that all the information and statements contained in the
written statement prepared were true and accurate.
Before testifying in the Grand Jury, I told my attorney, Robert
Loeb that I had made up most of the information about Gregory
Chester, Arnold Council and Gabriel Bush. I also told my attorney
that I did not want to testify before the Grand Jury because the
statement that had been prepared was not accurate or true. My
attorney then threatened me by saying, “if you change your
testimony now, you will not get any deal and will be facing a life
sentence or the death penalty.” My attorney further stated that I had
to go along with whatever the prosecutor wanted, or I would lose
the deal. Because I believed that I, in fact, had a deal with the federal
9

government on August 14, 2014, for a sentence 35-40 years only if I
agreed to testify before the Grand Jury and swear that the statement
prepared for me was true and accurate, I did so, even though my
attorney and I knew all along that it was not true.
When I received the written plea agreement eight-months later,
in August 2014, I learned for the first time that all that I had been
promised was a chance to get a sentence or not more less than 35
years, but not more than 40 years, but only if the prosecutor
continued to believe that I was continuing to cooperate and be
truthful. My attorney assured me that everything was fine and that I
would get the 35-40 year sentence recommendation if I just testified
consistent with the grand jury statement. I told my attorney that I
had already testified consistent with the grand jury statement that he
had prepared. I was then told by my attorney that Gregory Chester,
Arnold Council and Gabriel Bush were going to trial and that I
would now need to sign a written plea agreement and enter a guilty
plea to the federal charges in order to continue to cooperate. My
attorney assured me that once I pled guilty to the charges as
described in the plea agreement, the deal would be done as long as I
continued to cooperate and do what the prosecutor wanted.
After I signed the written plea agreement and entered my guilty
plea, I was required to meet with the federal prosecutor on several
10

more occasions. At each meeting, the prosecutor again went over the
previous grand jury statement and began to instruct me on how to
answer certain questions when questioned at trial about the things I
had said. Over time, I began to feel that what the prosecutor wanted
me to say at trial was different from what I first told the federal
agents and the prosecutor, and was even more false than the lies I
had told about Gregory Chester, Arnold Council and Gabriel Bush. I
began to believe that my words were now being twisted and that I
was being forced to say things about Gregory Chester, Arnold
Council and Gabriel Bush that both my attorney and I knew were
not true. When I asked my attorney to try to address and correct this
problem with the prosecutor, my attorney threatened me and told
me that I would lose the deal and would be sentenced to life. I
believe my attorney stopped working for me and was now only
interested in helping the prosecutor.
I believe
. . . . I believe I received ineffective assistance of counsel before I
entered my guilty plea because my attorney: (1) improperly and
unreasonably instructed me to provide testimony on August 14,
2014, before the grand jury, testimony that he knew was false and
inaccurate; (2) failed to inform the federal prosecutor before I entered
my guilty plea of my desire and willingness correct prior false and
11

inaccurate statements about Gregory Chester, Arnold Council and
Gabriel Bush; (3) improperly prevented me from providing essential
different but truthful information about my knowledge of Gregory
Chester, Arnold Council and Gabriel Bush to the federal prosecutor
before the guilty plea; (4) improperly advised me to waive my right
to file an appeal and/or post-conviction petition in accordance 28
U.S.C § 2255, to challenge any sentence imposed – including a life
sentence; and (5) in complete disregard to the likely consequences,
arranged a meeting between me and the federal prosecutor in 2015,
long after these issues came to light, for the sole purpose allowing
the prosecutor an opportunity obtain factual support and a legal
basis to justify withholding its recommendation for a reduced
sentence, knowing that result of this meeting would leave me with
no recourse and with no opportunity to receive the reduction in the
statutory sentence which was promised following my extensive
cooperation and testimony in the grand jury.
/s/ Byron Brown
The district court, without holding an evidentiary hearing, denied Brown’s
Motion to Withdraw his Guilty Plea, summarily dismissing Brown’s allegations of
ineffective assistance of counsel. The district court further held that the government’s
decision not to recommend that Brown receive a cooperation assistance sentencing
departure, as provided in the written plea agreement, was within the government’s
12

discretion. Because the government had concluded that Brown lied and presented false
information to the grand jury, the government did not recommend that Brown receive a
30-40 month sentence. The district court thereafter ordered Brown to be sentenced for a
total term of life imprisonment as to each of Counts 1 and 4, to run concurrently to each
other and any other custodial sentence that has been imposed. On August 28, 2020, the
Court of Appeals for the Seventh Circuit denied Brown’s appeal. United States v. Byron
Brown, et al, 17-1650 (Slip Opinion) August 28, 2020.
REASONS FOR GRANTING THE WRIT
This Court should grant a writ of certiorari to review the question presented
because the Court of Appeals for the Seventh Circuit improperly held that a district
court may summarily deny a motion to withdraw a guilty plea, without a hearing,
unless the defendant first “offers substantial evidence supporting his claim,” thereby
preventing a defendant from establishing a record to evaluate and assess his ineffective
assistance of counsel claims.
In denying Brown appeal, the Seventh Circuit, first ruled that “moving to
withdraw a guilty plea does not automatically entitle a defendant to an evidentiary
hearing,” citing United States v. Collins, 796 F.3d 829, 834 (7th Cir. 2015). U.S. v. Brown,
Slip Op. 17-1650, p. 77. In further reliance on Collins, the Seventh Circuit further held,
that not only must “a defendant must offer substantial evidence in supporting his
claim” but that “if the allegations advanced in support of the motion are conclusory or
unreliable, the motion may be summarily dismissed.” Id. (citing, United States v.
13

Peterson, 4141 F.3d 825, 827 (7thCir. 2005); United States v. Jones, 381 F.3d 615, 618 (7th
Cir. 2004)). The district court’s determination of whether or not a defendant has
advanced sufficient allegations in support of the motion that are not merely “conclusory
or unreliable” is not defined and the Seventh Circuit offers no guidance to assessment
whether a district court has abused its discretion by a summary dismissal.
Unlike the Seventh Circuit, the Sixth Circuit applies a “totality of the
circumstances” analysis when determining whether a district court abused its discretion
when the court decides against granting a defendant an evidentiary hearing when
considering a Motion to Withdraw a guilty plea. In United States v. Wynn, 663 F.3d at
849-50 (6th Cir. 1994), the Sixth Circuit explained that district courts must consider seven
factors in assessing whether a defendant established a "fair and just" reason under the
totality of the circumstances:
(1) the amount of time that elapsed between the plea and the motion to withdraw it;
(2) the presence (or absence) of a valid reason for the failure to move for withdrawal
earlier in the proceedings;
(3) whether the defendant has asserted or maintained his innocence;
(4) the circumstances underlying the entry of the guilty plea;
(5) the defendant's nature and background;
(6) the degree to which the defendant has had prior experience with the criminal
justice system; and
(7) potential prejudice to the government if the motion to withdraw is granted.

14

Similarly, while the D.C. Court of Appeals also reviews a district court's denial of
such a motion for abuse of discretion, the D.C. Court of Appeals in United States v.
Robinson, 587 F.3d 1122, 1127, (D.C. Cir. 2009), held that the district court is required to
focus on three factors: "(1) `whether the defendant has asserted a viable claim of
innocence'; (2) `whether the delay between the guilty plea and the motion to withdraw
has substantially prejudiced the government's ability to prosecute the case;' and (3)
‘whether the guilty plea was somehow tainted.'" (citing, United States v. Taylor, 139 F.3d
924, 929 (D.C.Cir.1998) (quoting United States v. Ford, 993 F.2d 249, 251 (D.C.Cir.1993)).
The D.C. Court further noted that the third factor is the "most important."
Moreover, in affirming the district court’s summary dismissal of Brown’s seeking
to withdraw his guilty plea, the Seventh Circuit further reasoned that “even assuming
Brown received ineffective assistance of counsel, he cannot show prejudice, which the
court stated, required Brown to “show that there was a reasonable probability that, but
for counsel’s errors, he would have not pleaded guilty and would have insisted on
going to trial.” U.S. v. Brown, Slip Op. 17-1650, p. 78. Defining the scope of prejudice in
this limited and very restrictive fashion when assessing a defendant’s ineffective
assistance of counsel claim is completely inconsistent with the well-reasoned
approaches applied in other circuits, and improperly undermines the protections of the
Sixth Amendment guarantee of competent legal representation.
Under Strickland’s familiar two-prong test, an appellate court is required to
evaluate the issue of deficiency, i.e., whether “counsel’s representation fell below an
objective standard of reasonableness,” and then consider the issue of prejudice, i.e.,
15

whether “there is a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different,” Carter v. Duncan, 819 F.3d at
941 (quoting Strickland v. Washington, 466 U.S. 688, 694, 104 S.Ct. 2052). Accordingly,
Strickland’s prejudice standard does not require a defendant to show that the result of
the trial (outcome) would have been different but for counsel’s error; “he only needed
to show a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Jones v. Calloway, 842 F.3d 454, 465 (7th
Cir., 2016)(quoting Strickland, 466 U.S., at 694, 104 S.Ct. 2052)).
In this case, had the district court conducted an evidentiary hearing, the court
would have been in a position to evaluate whether Brown’s appointed counsel could
have taken reasonable steps to save Brown’s cooperation deal with the government.
The record is undisputed that defendant Brown relied extensively on his attorney to
negotiate a complex federal global plea agreement involving his cooperation and it was
this attorney’s responsibility to ensure Brown did not unknowingly commit any act that
would prevent him from receiving the benefits of the bargained for plea agreement.
Brown continued his cooperation over a three-year period of time and the extent of his
cooperation throughout was complex and expansive. Brown was well aware that he
needed to continue to cooperate pursuant to agreement in order earn a recommended
sentence of 30-40 years, as opposed to a sentence to life imprisonment. Brown’s attorney
also knew that if Brown’s cooperation was subsequently determined to be unacceptable
in any way as determined at the sole discretion of the Government, Brown would lose
the benefits of the plea agreement. Brown suffered prejudice because he lost the benefits
16

of his plea agreement despite his extensive cooperation, over a 3-year period. Brown
only moved to withdraw his guilty pleas when he learned that the government would
not make a recommendation to the court that Brown receive a sentence of 30-40 years
because, according to the Government, Brown admitted that he had lied when
testifying before the grand jury. Significantly, in his motion to withdraw his guilty plea,
Brown alleged that his attorney advised him in November 2015, after he had plead
guilty, to tell the Government he had lied in the grand jury, without also advising
Brown that this would result is losing the benefits of his carefully negotiated plea
agreement.
Petitioner submits that had the Seventh Circuit applied either the “seven factor”
totality of the circumstance analysis applied in the Sixth Circuit, or the “three factor
analysis as applied by the D.C. Circuit Court of Appeals, Petitioner’s Sixth Amendment
right to effective and competent legal representation would have been properly and
sufficiently protected because the totality of the circumstances warranted that the
district court hold an evidentiary hearing to assess Petitioner’s ineffective assistance of
counsel claims.
CONCLUSION
For the reasons noted herein, Petitioner respectfully prays that a writ of certiorari
issue to review the judgment and opinion on the United States Court of Appeals for the
Seventh Circuit entered in United States v. Byron Brown, Slip Op. 17-1650, on August 28,
2020.

17

Respectfully submitted,
/s/ Gregory T. Mitchell
Gregory T. Mitchell
Counsel of Record

18

APPENDIX

19

